No.

IN THE
SUPREME COURT OF THE UNITED STATES

Bodhisattva Rkandha
— PETITIONER
(Your Name)
VS.
Massachusetts anneals Court

— RESPONDENT(S)

PROOF OF SERVICE
Bodhisattva Rkandha
, do swear or declare that on this date,
, 2020-, as required by Supreme Court Rule 29 I have
Bentember 30
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
t

A1

■ ■

■■

■■■■■■

The names and addresses of those served are as follows:
Mass. Anneals Ct. 1 Pemberton

sct.

1200 Boston MA 02108-1705

Middlesex Run. f!t. 200 Trade Center Woburn. MA 01801
District Attorney Marian Rvan 1S Commonwealth Avenue. Woburn, MA 01801

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

ScDtcJYlljcd. 30

, 20-20.

(Signature)
-18-

